No. 20-219
_____________
IN THE
SUPREME COURT OF THE UNITED STATES

Jane Cummings,

Petitioner,
v.
Premier Rehab Keller, P.L.L.C.,

Respondent.

On Petition of a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

MOTION FOR LEAVE TO DISPENSE
WITH PREPARATION OF A JOINT APPENDIX

Pursuant to Rule 26.8 of the Rules of this Court, petitioner Jane
Cummings respectfully moves for leave to dispense with the requirement of a
joint appendix in this case. The respondent agrees that a joint appendix is not
necessary.
This case presents the question whether the compensatory damages
available under Title VI of the Civil Rights Act of 1964 and the statutes that
incorporate its remedies include compensation for emotional distress. The

1

opinions of the lower courts are included in the appendix to the petition for a
writ of certiorari. In our view, no other portion of the record merits special
attention such as would warrant the preparation and expense of a joint
appendix, and a joint appendix would not materially assist the Court in its
consideration of the case.

Dated: August 11, 2021

Respectfully submitted,

Andrew Rozynski

Counsel of Record

EISENBERG & BAUM, LLP
24 Union Square East, Penthouse
New York, NY 10003
(212) 353-8700
arozynski@eandblaw.com

2

